     REVIEW OF FATAL ACCIDENTS IN
      METAL/NON-METAL MINING
              1995-1998




MINE SAFETY AND HEALTH ADMINISTRATION

______________________________________________________
                                                                                       REPORT NO.: 2E-06-001-0004
                                                                                       DATE ISSUED: JUNE 02, 2000




                                                  TABLE OF CONTENTS




ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

PURPOSE, BACKGROUND AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

     A. Failure to Use Personal Protective Equipment
        is a Significant Factor in Metal/Non-Metal Fatalities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

     B. The Failure of Many Miners to Use Personal Protective Equipment
        is Related to Risk-Taking Behavior . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     C. More Diverse Training and Educational Approaches May Deter Risk-Taking Behavior
        and Increase Personal Protective Equipment Use Among Miners . . . . . . . . . . . . . . . . . . . . . . 4

     D. MSHA's Ability to Control Risk-Taking Behavior Through Assessments
        Against Mine Operators is Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

APPENDICES

          Appendix A - M/NM Mining Fatalities Pertaining to
                       Personal Protective Equipment 1995-1998 . . . . . . . . . . . . . . . . . . . . . . . . . 21

          Appendix B - Studies on Seat Belt/Restraint System Use by Miners . . . . . . . . . . . . . . . . . 33

          Appendix C - Selected Bibliography/Research Sources . . . . . . . . . . . . . . . . . . . . . . . . . . 36

          Appendix D - MSHA’s Written Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
                       (Dated January 27 and April 21, 2000)
                                ACRONYMS AND GLOSSARY

                                             ACRONYMS

CFR            -       Code of Federal Regulations
DOL            -       Department of Labor
GAO            -       U.S. General Accounting Office
IPA            -       Individual Personal Assessment
M/NM           -       Metal/Non-Metal Mining
MSHA           -       Mine Safety and Health Administration
NIOSH          -       National Institute for Occupational Safety and Health
OIG            -       Office of Inspector General, U.S. Department of Labor
OACE           -       Office of Analysis, Complaints and Evaluations
PPE            -       Personal Protective Equipment
ROPS           -       Rollover Protective Structures
WL             -       WestLaw


                                             GLOSSARY

Fatality:      Death that occurs at a mine site which is not a result of natural causes. Not all fatalities
               counted by MSHA are necessarily those of miners. For example, non-miners killed
               while visiting or trespassing on mine property may be counted.

Miner:                Person working at the mine site. We use the term “individual” and “rank-and-
                      file” miner to denote miners without supervisory or corporate responsibilities.

Mine Operator: For purposes of this report, we are using the term “mine operator” to denote any
               corporate entity covered by the Mine Act, including contractors.

Personal Protective
Equipment:            For purposes of this report, we focused primarily on seat belts, safety belt/lines
                      (also described as safety harness/lanyards), life jackets, and hard hats.
                      However, personal protective equipment is anything that a worker can wear,
                      carry, or use to protect against a hazard encountered while working.
                                                         i
                                        EXECUTIVE SUMMARY

This project was initiated to assist the Mine Safety and Health Administration (MSHA) in their analysis
of factors which influence fatal accidents in the metal and non-metal (M/NM) sector of the mining
industry. Fatal accidents in M/NM reached a ten year high in 1997. Our goal was not to revisit the
various analyses already conducted by MSHA regarding M/NM fatalities. Instead, our review focused
on factors contributing to fatal accidents not fully stressed by MSHA, or stressed fully in comparison
with other variables.

Our methodology included an examination of MSHA investigative reports for all M/NM fatalities
between 1995 and 1998. We also reviewed research regarding occupational and accidental deaths to
explore the applicability of factors which may influence fatal accidents in the mining industry.


 RESULTS OF REVIEW

The review identified several areas for improvements which will allow MSHA to more effectively
contend with miner risk-taking behavior in the area of personal protective equipment (PPE).

Finding A - The Failure to Use PPE is a Significant Factor in Metal/Non-Metal Fatalities

Our review of the investigative reports for 212 M/NM fatalities between 1995 and 1998 indicates that,
in a significant number of these fatalities, a failure to use PPE contributed to the fatal accident.
Specifically, in at least 51 fatalities, miners did not utilize seatbelts, safety belts/lines, life jackets, hard
hats, or other protective equipment. An additional 8 fatalities were PPE related, involving a more
complex combination of miner behavior and PPE use. Three (3) other fatalities occurred in vehicles
where MSHA currently has no regulatory authority to require seat belts. Additional studies conducted
by MSHA and the Bureau of Mines complement this finding.

Finding B - The Failure of Many Miners to Use PPE is Related to Risk-Taking Behavior

In a majority of the cases where miners did not use PPE, the mine operator had supplied the
appropriate equipment, and often provided required MSHA training regarding its use. Even in those
fatalities where information on PPE training was not discussed in the investigation report, it remains
likely that most of these miners were aware of appropriate PPE use. Such fatalities correspond with
the findings of researchers in the safety field that risk-taking behavior plays a significant role in
workplace fatalities.




                                                        ii
Finding C - More Diverse Training and Educational Approaches May Deter Risk-Taking
            Behavior and Increase PPE Use Among Miners

Safety training, including mandatory training conducted by mine operators, and MSHA’s own use of
educational safety sweeps, may not prevent risk-taking. However, MSHA can utilize the field of
occupational psychology to develop training which directly addresses the causes of risk-taking behavior
to promote PPE use.

Finding D - MSHA's Ability to Control Risk-Taking Behavior Through Assessments
            Against Mine Operators is Limited

Assessments pursued by MSHA against mine owners when their employees don’t use PPE are
generally too negligible to have much pro-active affect.


 RECOMMENDATIONS

MSHA needs more educational, engineering, and enforcement tools to more effectively contend with
miner risk-taking behavior in the area of PPE. Consequently, we recommend that MSHA:

1.     Utilize certified occupational/safety psychologists to develop training and educational programs
       which specifically target risk-taking behavior and PPE use. This training should be developed
       as an ongoing process to provide consistent reinforcement to miners, and assimilated within
       MSHA’s current training methods.

2.     Review whether special and regular assessments for PPE violations can be pursued more
       effectively.

3.     Pursue engineering controls, to combat the problem of miners not using PPE and enhance PPE
       effectiveness, whenever feasible. These should include regulatory proposals requiring mining
       vehicles to have additional passive safety equipment and enhanced restraint systems.

4.     Over a five-year period, calendar years 2000 through 2004, MSHA should track and monitor
       the number of miners killed while not using PPE. If PPE related fatalities have not significantly
       declined, MSHA should examine other options to increase PPE use, such as individual
       assessments against any miners for PPE violations.




                                                  -iii-
 MSHA’s RESPONSE AND OIG’s CONCLUSIONS

MSHA’s response to the OIG’s final draft report agrees that “PPE can be a major factor in the severity
of an accident,” and MSHA did not directly dispute the OIG’s finding that behavioral factors play a
role in PPE use by miners. However, MSHA also believes that the OIG report overemphasized the
role of PPE use and risk-taking behavior as contributing factors in fatal accidents.

OIG report recommendations two and three are considered resolved, and MSHA has initiated
corrective actions in these areas. OIG recommendations one and four remain unresolved. MSHA’s
complete response can be found in Appendix D.




                                                 -iv-
                    PURPOSE, BACKGROUND AND METHODOLOGY


 PURPOSE

This review was initiated to assist the Mine Safety and Health Administration (MSHA) in their analysis
of factors which influence fatal accidents in 1the metal and nonmetal (M/NM) sector of the mining
industry. MSHA’s concerns regarding safety in the M/NM sector increased when on-the-job deaths in
this sector reached a ten-year high in 1997. MSHA has reviewed a variety of factors, including
mandatory safety training, miner age and experience, mine type, production volume, size of the M/NM
inspectorate, job classification, geographic area, and day of the week as possible factors in fatality
rates. Our goal was not to revisit the various analyses already conducted by MSHA regarding M/NM
fatalities. Instead, we focused on factors contributing to fatal accidents which have not been stressed
by MSHA, or stressed fully in relationship to other variables.


 BACKGROUND

MSHA enforces the Federal Mine Safety and Health Act of 1977 (Mine Act). MSHA carries out the
mandates of the Mine Act at all mining and mineral processing operations in the United States
regardless of size, number of employees, commodity mined, or method of extraction. MSHA has two
primary divisions, “M/NM Mine Safety and Health” and “Coal Mine Safety and Health.”1 During our
review period, M/NM mine operators were required to train their miners in accordance with 30 C.F.R.
Part 48.


 METHODOLOGY

Our methodology included an examination of MSHA investigative reports for all M/NM fatalities
between 1995 and 1998. An entrance conference was held with MSHA officials in December, 1998.
Field work was conducted at MSHA's headquarters facility in Arlington, VA, the Dallas District Office,
and the San Antonio field office, with additional interviews conducted via telephone with M/NM offices
across the country. Exit conferences were conducted with MSHA on November 9, 1999, and April 5,
2000, to discuss our preliminary findings, and to solicit ideas and input regarding preliminary
recommendations. MSHA submitted a formal response to our preliminary findings on January 27,
2000, and to the final draft of this report, on April 21, 2000.

We conducted our review in accordance with the Quality Standards for Inspections published by the
President's Council on Integrity and Efficiency.



1 The Mine Act is codified at 30 U.S.C. 801 et seq. Prior to 1977, the metal and nonmetal mining
industries and the coal mining industry were covered by separate occupational safety and health statutes.

                                                   -1-
                                                 FINDINGS


 FINDING A - THE FAILURE TO USE PPE IS A SIGNIFICANT
             FACTOR IN METAL/NON-METAL FATALITIES

Our review of the investigative reports for the 212 M/NM fatalities between 1995 and 1998 indicates
that, in a significant number of these fatalities, a failure to use basic personal protective equipment (PPE)
contributed to the fatal accident. In at least 51 fatalities, miners did not utilize seatbelts, safety
belts/lines, life jackets, hard hats, or other protective equipment, as stipulated directly in MSHA’s
investigative report.2 An additional 8 fatalities were PPE related, involving a more complex
combination of miner behavior and PPE use. Three (3) other fatalities occurred in vehicles where
MSHA currently has no regulatory authority to require seat belts. A listing of all these fatalities is
provided in Appendix A.

We recognize that the failure of miners to utilize PPE does not necessarily cause fatal accidents. For
example, fatal accidents may be caused by mine operator negligence, physical error, unsafe behavior,
and a wide range of other factors. However, whether the miner uses PPE can be a major factor in
terms of the accident being fatal. This does not mean that PPE use can guarantee that a miner will
not be killed or seriously injured while working in the mines - however PPE use can greatly decrease
the likelihood of death or serious injury.

In particular, despite their ability to save lives and reduce the severity of injuries, the level of seat belt
use by miners is low.3 This is evidenced well beyond the fatalities examined during our review where
seat belts were not used. Additional studies conducted by MSHA and the Bureau of Mines indicate
that miner non-use of seat belts is a long-term, chronic problem.

For example, MSHA reviewed surface mining haulage accidents between 1987-1996 and found that
seat belts were not used in 73 of 78 fatal accidents. For M/NM surface haulage fatalities, seat belts
were not worn in 49 of 51 total deaths. Another MSHA’s study of truck accidents between January
1990 and July of 1996 found that in 200 of 1,300 accidents miners failed to use seat belts. Overall,
640 of these 1,300 accidents resulted in traumatic injuries, including 139 fatalities. This study also
concluded that, in 55 accidents involving trucks and berms, failure to use seat belts always resulted in


2 The number of fatalities where PPE was not utilized by the miner may be higher. Unfortunately,
determining the exact number of miners killed while not using PPE was not possible. In some cases
there were no witnesses to accidents involving vehicular accidents, falls, etc. In other cases MSHA
investigators failed to address PPE use in relevant fatalities.

3 Our discussions with MSHA officials indicate that mine vehicles can be modified to enhance restraint
systems and control for their use. Passive safety controls may include vehicle sirens, buzzers, and lights
which go off in the event that a miner removes his seat belt while the vehicle is in operation.

                                                       -2-
more serious injuries. A study conducted by the Bureau of Mines between 1989 and 1991 concluded
that seat belts were worn in only 45% of mining haulage accidents. Finally, a 1987 MSHA study
found that miners failed to use seat belts in 42% of M/NM haulage accidents. See Appendix B for
references and more detailed discussion of these studies.


 FINDING B - THE FAILURE OF MANY MINERS TO USE PPE
             IS RELATED TO RISK-TAKING BEHAVIOR

In a majority of the cases where miners did not use PPE, the mine operator had supplied the
appropriate equipment, and often provided required MSHA training on its use. Even in those fatalities
where information on PPE training was not discussed in the investigation report, it remains likely that
most of these miners were aware of appropriate PPE use. For example, our interviews with M/NM
inspectors, and our review of investigative reports, indicate that mine operators have postings available
in vehicles and around the mines regarding PPE. Our finding that miners were killed in fatal accidents
while not using available PPE corresponds with the findings of researchers in the safety field that
individual risk-taking behavior plays a significant role in workplace fatalities. While perceptions of
risk vary among individuals, there are phenomena isolated by safety researchers which illustrate why
miners may be prone to risk-taking behavior.4

Real Versus Perceived Risk

Researchers contend that a worker’s perception of risk is generally much lower than actual risk
exposure. A vicious cycle occurs whereby every shift worked without an injury reinforces an "it is not
going to happen to me" attitude which serves to further rationalize risk-taking behavior. Familiarity with
a particularly dangerous job breeds complacency, and the more frequently a worker is exposed to a
particularly dangerous work activity, the less risky it becomes in that worker’s mind. The refusal of
some M/NM miners to use PPE may attest to an imbalance between real and perceived risks in M/NM
mining. For example, on May 5, 1997, a miner fell from his boat and drowned while draining a pond.
This miner, who did not wear an available life jacket, could not swim, and had paralysis of his hip and
leg.

Risk Compensation

Researchers also believe that workers are less likely to be threatened by risk-taking behavior that has
benefits. For example, a miner may feel more comfortable not wearing a hard hat, or believe
that he can work faster without taking the time to secure himself with a safety belt/line.


4
Our focus for this report is risk-taking in the area of PPE. However, we identified other potential forms
of risk-taking behavior which may have contributed to fatalities. These included miners using alcohol
and/or drugs, operating vehicles recklessly and/or at excessive speeds, failing to de-energize or properly
ground equipment, and being crushed or run over by unsecured mine equipment.

                                                    -3-
In light of the fact that M/NM miners forgo the use of PPE, it appears that many M/NM miners are
tolerating unnecessary risk as part of their job.5

The Myth of Controllable Hazards

Researchers are critical when workplace hazards are portrayed as inherently controllable by employers
or government regulators through engineering controls alone, and they contend that this compounds the
problem of reduced risk perception. For example, in our review of MSHA accident reports, we found
that structures designed to prevent mine vehicles from going over the edges of pits and roads were
easily run through by mine vehicles. In addition, vehicle rollover protective structures (ROPS) can be
useless in roll-overs if seat belts are not also used. Yet, miners operating vehicles may feel "protected"
by berms, guardrails, ROPS, etc.- gaining a false sense of security when in fact they are at risk. In
contrast to over-stressing accident controllability, a current tenet among safety researchers is that,
although accidents can be reduced, they happen, and employees must be motivated to accept and
prepare for this reality through the use of PPE.

Risk-Taking and “Near Hits”

Research also shows that some employees are only motivated to stop engaging in risk-taking behavior
after they experience what researchers term a “near hit” – an experience where an employee narrowly
avoids an injury or accident. H.W. Heinrich’s “Law of Safety” states that there are numerous risky
acts for every near hit, and many more near hits than lost-time injuries.6
Ultimately, timing and luck serve as the only difference between a near hit and a serious or fatal injury.
Of course, these potentially life-threatening near hit events are the worst possible form of safety
education for employees. Worse still, even employees who experience dramatic near hits may still
engage in risky behavior. For example, on September 30, 1997 a miner not wearing his seat belt was
ejected from the vehicle and crushed underneath it after a roll-over. Ironically, the miner had rolled this
vehicle on a previous shift, but was wearing a seat belt and was not injured.


 FINDING C - MORE DIVERSE TRAINING AND EDUCATIONAL
             APPROACHES MAY DETER RISK-TAKING BEHAVIOR
             AND INCREASE PPE USE AMONG MINERS

Safety training that does not effectively address risk-taking behavior by miners may have limited results.
For example, as we have seen in our review, miners trained to use PPE were not necessarily
motivated to use it. An area of agreement between MSHA and the OIG during our review is that


5 Risk-taking in mining is not limited to the United States. A survey conducted by the Australian
Government indicated that one-third of Western Australia's underground miners and mine foremen
consciously took risks or behaved unsafely. Reasons for risk-taking behavior were time, effort, and
monetary savings. See WL (WestLaw) 21947344.

6 Heinrich’s research concluded that 88% of industrial accidents were caused primarily by unsafe acts,
as opposed to unsafe conditions.

                                                    -4-
mandatory training conducted by mine operators (30 C.F.R. Part 46 and Part 48) may not deter risk-
taking behavior.7 As we found in our review, miners killed while not using PPE worked for mines
subject to mandatory safety training, or for mines “exempt” from direct training enforcement by MSHA,
who nonetheless had required training/polices in place.

Training conducted by MSHA has also been limited in its ability to control risk-taking. For example,
since 1995, MSHA has periodically engaged in massive educational safety sweeps at M/NM mines,
using “talking points” to stress the importance of using PPE. However, even such special efforts were
not successful in ensuring PPE use. As shown in Appendix A, failure to utilize PPE contributed to a
significant number of miner fatalities in 1996, 1997, and 1998. A tragic example of this problem
occurred during a MSHA's nationwide sweep of M/NM mines, when a truck driver was killed only
one day after attending an MSHA presentation dealing with, among other things, using seat belts. The
driver ignored MSHA’s admonitions to wear a seat belt and was thrown through the windshield when
his truck struck a berm on a haulage road.8

We are not contending that either mandatory or special training is unimportant to the health and safety
of miners. Indeed, MSHA should be commended for its work in the development of Part 46 training
regulations and special training efforts in the field. However, miner behavior in the area of risk-taking
and PPE should not necessarily be expected to improve dramatically through mandatory or MSHA
training alone, in their current forms.

Occupational/Safety Psychologists Target Risk-Taking Behavior

The field of occupational or “safety” psychology specifically addresses psychological factors, such as
risk-taking, which negatively influence safety in the workplace. Training conducted by safety
psychologists is intended to go beyond the basic “do’s and don’ts” of safety training to target the “it
can’t happen to me” attitude which is prevalent among workers who don’t use PPE. 9 There are
various cognitive and behavioral strategies used by psychologists that can motivate miners to use PPE.
The reference material listed in Appendix B provides an overview of these methods, in addition to
detailed information on risk-taking behavior and workplace accidents.



7 MSHA expressed this opinion in its January 27, 2000 response to our preliminary findings. Mandatory
training covers a wide variety of topics, and does not have a specific focus on risk-taking behavior.

8 See WL17509666, Rock Products Magazine, Demand Safety, March 30, 1998.

9 Persuasive safety training enhances perceptions of safety threats, while reinforcing the efficacy of
responses to threats. In terms of miners and PPE, training would entail, 1) making miners feel more
threatened if they don’t use PPE, and 2) educating miners regarding the importance of PPE, including
refutations of myths which might discourage PPE use. Our review indicates that these myths may
include beliefs that miners are somehow safer in an accident when a seat belt is not used, or that they are
safer jumping from an out of control mine vehicle, rather than remaining buckled up.

                                                    -5-
 FINDING D - MSHA's ABILITY TO CONTROL RISK-TAKING
             BEHAVIOR THROUGH ASSESSMENTS
             AGAINST MINE OPERATORS IS LIMITED

MSHA can propose assessments from $50 to $55,000 against mine operators for PPE violations. In
theory, citing and fining mine operators should have a strong trickle down effect because it would be in
the mine operator’s best economic interests to internally police PPE use among its miners. However,
MSHA's assessments for PPE violations appear too low to seriously motivate mine operators.
Specifically, our review of paid regular and single penalty assessments for PPE violations indicates that
paid assessments were generally not far from the $50 minimum.10

<       For 1,182 paid assessments of violations of 30 CFR. 56.14130(g) where seat belts were not used
        by miners, the average regular assessment paid was $179. Virtually all of these were considered
        “significant and substantial” (S&S) violations where MSHA determined a reasonable likelihood of
        serious injury. 401 single penalty assessments averaged $50.

<       For 497 paid assessments of S&S violations at 30 CFR. 56.14131(a) involving seat belts use in
        haulage trucks, the average regular assessment paid was $176. 124 single penalty assessments
        averaged $50.

<       For 1,060 paid assessments of S&S violations at 30 CFR. 56.15005, involving failure to use safety
        belts and lines, the average regular assessment paid was $223. 62 single penalty assessments
        averaged $50.

<       For 118 assessments of S&S violations at 30 CFR. 56.15020, where life jackets were provided but
        not used by miners, the average regular assessment paid was $202. The 18 single penalty
        assessments averaged $50.

Special Assessments

After miners are killed or injured while not using PPE, MSHA usually proposes steep special assessments
against the mine operator - up to the $55,000 maximum. After paying a large fine, a mine operator
probably will be more motivated to ensure that his employees use PPE. However, the limitation of this type
of assessment is that it is reactive, serving to motivate only after death or injury has occurred. Although
MSHA can also use its special assessment authority in cases other than when a fatality or injury has already




10 Data provided by MSHA for the period between January 1, 1995 and June 24, 1999. Regular
assessment amounts proposed by MSHA were consistent with the assessments paid by mine operators.


                                                      -6-
occurred, our review indicates that such special assessments are relatively rare.11 A further limitation of
special assessments is that they are significantly reduced or dismissed when contested by mine operators if
mine operator negligence is determined low by Administrative Law Judges or the Federal Mine Safety and
Health Review Commission.

In either regular or special assessments for PPE violations, the mine operator’s level of negligence is a major
component in terms of how great an assessment MSHA can viably pursue. Negligence can be low, for
example, if a determination is made in a contested case that the failure to utilize safety equipment was
fundamentally more a matter of miner choice than mine operator negligence. Negligence will normally be
lower when the mine operator has 1) provided/maintained PPE, and, 2) trained miners on PPE, or otherwise
encouraged its use. In the PPE related fatalities we examined, the vast majority of mine operators provided
PPE, and many conducted appropriate training. 12

“Strict Liability” Limits MSHA’s Ability To Target
Individual Miner Behavior in the Area of PPE Enforcement

With the exception of violations involving smoking, mine operators and their agents are held strictly
liable for violations of the Mine Act. Such strict liability is essential for the enforcement of the vast
majority of safety and health requirements of the Mine Act. For example, a mine operator’s
responsibility to control respirable pathogens, or ensure proper methane ventilation, is logical since
individual miners cannot be expected to have either the authority or the means to implement all aspects
of compliance. However, strict liability does not necessarily serve the best interests of miners when the
safety issue is PPE. For example, if an individual miner chooses not to wear a seat belt provided by the
mine operator, it is the mine operator, not the miner, who is cited and fined by MSHA. Strict liability
applies to all PPE equipment, and is in effect even when the mine operator has 1) provided and
maintained PPE equipment; and 2) trained miners on PPE, and/or encouraged its use.

Enhanced Assessment Authority Could Curb Miner Risk-Taking Behavior
in the Area of Personal Protective Equipment

As demonstrated by the high number of fatalities where failure to use PPE is a contributing factor, and
because assessments against mine operators are generally too minimal to ensure that miners use PPE,



11 For example, of 1,673 paid assessments made for seat belt violation 56.14130(g), only 81 special
assessments were collected in situations other than an injuries/fatalities.

12 A “rank-and-file” non-supervisory miner’s negligence cannot be directly imputed to his employer for
purposes of penalty assessment. See Western Fuels-Utah, Inc., FMSHRC 256, 260-261 (March 1988);
Southern Ohio Coal Co., 4 FMSHRC 1459, 1464 (August 1982). For a case involving a fatality during
our review period that demonstrates the mitigating effects of miner negligence, see Jobe Concrete
Products Inc., 21 FMSHRC 1143 (October 1999).

                                                   -7-
we believe that MSHA should study whether its civil penalty assessment
authority be extended to include individual, “rank-and-file” miners when they are culpable for

PPE violations. 13 Although this may require a statutory change to the Mine Act, we believe it could
improve PPE use among miners.

Precedents where Individuals are Liable for Unsafe Acts in Mining

Pursuant to Section 110(g) of the Mine Act, any miner can be personally fined $275 when they engage
in smoking activity or possess smoking related materials at the mine site. MSHA has conducted
special mine “sweeps” to enhance its enforcement efforts in this area. Mine operators are held
responsible for educating and monitoring their employees in regard to smoking materials, and are also
held liable for civil penalties for smoking related violations. Both MSHA and operator efforts are
designed to ensure that miners neither purposefully or inadvertently carry smoking materials into the
mines - and these efforts have been very successful. In the forty years prior to enactment of the Mine
Act, 843 miners were killed in smoking related explosions. In contrast, no more than 39 miners have
been killed in smoking related explosions since the passage of the Mine Act in 1977, and none since
1994.

Any miner who knowingly violates any mandatory West Virginia safety or health standard is liable for an
Individual Personal Assessment (IPA) of up to $250 per violation. The ability of West Virginia, a state
with strong traditional ties to organized labor, to institute and retain use of its expansive IPA program may
illustrate that obtaining limited individual assessment authority for PPE violations is achievable.14

Additional Support: PPE Laws Which Hold the Individual Liable are Successful

One successful example of government holding individuals personally liable when they engage in risk-
taking behavior that jeopardizes their own safety is in the area of seat belts. Every state but New
Hampshire has mandatory seat belt laws for adults. Sixteen states have “primary” enforcement laws
whereby law enforcement personnel can ticket motorists solely because they are not wearing seat
belts, and data from the Center for Disease Control and Prevention shows that these primary


13 MSHA can already assess individual civil penalties against corporate directors, officers, or mine agents
for knowing and willful violations of the Mine Act. This includes individuals such as mine foremen who
work side by side with regular rank-and-file miners. These men are killed and injured every year while
mining, and are counted in MSHA’s annual fatality statistics.

14 See http://www.state.wv.us/mhst/News.htm. Our review did not encompass a review of the
effectiveness of IPA’s, or the level of enforcement activity on the part of West Virginia’s Office of
Miners’ Health, Safety and Training in the area of IPA’s. Because West Virginia miners are liable for all
health and safety violations, not PPE violations alone, states with primary seat belt laws may be better
models regarding the effectiveness of individual sanctions and increased PPE use.

                                                   -8-
enforcement laws are extremely effective, decreasing motor-vehicle-related deaths by 13% to 46%.15
Other states have “secondary” enforcement laws which require that motorists be pulled over for some
other infraction before they can be ticketed for seat belt violations.

The efforts by the states to increase seat belt use have been highly successful. This increased use has
resulted from a combination of government initiatives targeting both education and enforcement (fines
and points). However, traffic safety and law enforcement officials credit the threat of sanctions as
integral to the success of laws designed to increase seat belt use.

Critics of mandatory seat belt laws contend that threats of penalties against motorists are not effective
behavioral motivators because the enforcement of seat belt laws is rare. However, this may largely be
a matter of how tough each state chooses to be in their enforcement efforts. North Dakota, a state
with a weak secondary seat belt law and lax enforcement, has only a 43% rate of use for seat belts.16
In contrast, California’s strict enforcement approach is credited with
making it the national leader in seat belt use at 87%.17

We believe that, if authorized, MSHA could effectively devise a strategy to properly enforce PPE
related assessment authority against individual miners. Such enforcement efforts would not entail a
shifting of responsibility from mine operators to individual miners. MSHA would continue to be
responsible for proposing assessments for PPE violations against negligent mine operators. Rather,
enhanced PPE assessment authority would reflect shared responsibility between individual miners and
mine operators - a real world acknowledgment that individual miners play a prominent role in PPE use.




15 See WL 21068561, Journal of the American Medical Association, Motor-Vehicle Safety: A 20th
Century Public Health Achievement, June 1999.

16 See, e.g.,General Accounting Office, Motor Vehicle Safety: Comprehensive State Programs Offer
Best Opportunity for Increasing Use of Safety Belts (GAO/RCED-96-24, January, 1996); Los
Angeles Times, “Seat Belts Often Take a Back Seat,” December 4, 1997;

17 Ibid.

                                                   -9-
                                      RECOMMENDATIONS

Given that mining is such a dangerous occupation, we would expect that miners would unfailingly use
the seat belts, safety lines, life jackets, and hard hats which can save their lives. However, this is not
the case. Our review confirms that miners die in significant numbers when they forgo PPE use. As we
have demonstrated, MSHA’s ability to motivate miners to avoid such risk-taking through either training
or assessments is limited, and it is unclear as to whether all engineering advances in the area of passive
safety have been pursued by MSHA.

To increase PPE use by miners, we recommend that MSHA implement the following educational,
engineering, and enforcement solutions. None of these recommendations should be viewed in isolation;
rather, they should be pursued as part of an integrated strategy to reduce fatalities and injuries by
increasing PPE use.

RECOMMENDATION #1

MSHA should utilize certified occupational/safety psychologists to develop training and educational
programs which specifically target risk-taking behavior and PPE use. This training should be developed
as an ongoing process to provide consistent reinforcement to miners, and assimilated within MSHA’s
current training methods.

MSHA's Response

Behavioral psychologists have, in the recent past, presented to the safety and health community
some insight into accident causation. When their analysis looks at the complete accident cause,
including the system failures and individuals' behavior (both management and labor)
constructively, then their efforts have been of some help.

However, the OIG has presented no evidence that establishes that training and educational
programs developed by occupational or safety psychologists are more effective than programs
developed by other professionals in deterring risk-taking behavior or encouraging PPE
use-especially when, as in this matter, the efforts focus only on the behavior of one aspect of
presenting the review.

Representatives from MSHA's Directorate of Educational Policy and Development recently met
to discuss addressing miner training needs with representatives from the National Institute for
Occupational Safety and Health (NIOSH). We are exploring with NIOSH ways in which we
might use occupational psychologists in developing training programs designed to reduce
risk-taking behavior and encourage the use of PPE on the part of both management as well as
labor. The report's narrow focus on employee behavior fails to recognize the risk-taking
behavior of top and middle management, and does not address one of the main requirements of

                                                   -10-
effective training programs: a steadfast, unyielding commitment to safety at all levels from top
management on down.
There is no consensus among professionals in the field of occupational psychology on the type of
training best suited to altering risk-taking behavior. It appears likely that significant research
remains to be done in this area before effective training programs will be developed. The
professional safety and health community views with skepticism the use of behavioral controls.
If it is used in a broad-based context for both management and labor it has limited usefulness.
If, however, it is used as this report reasons, it could well result in a prejudicial outcome. The
effect would be to blame the victim, a concept which should be rejected in the final years of the
20th century.

The OIG should be aware that MSHA has no authority to require mine operators to use any
training programs that MSHA may develop in response to this recommendation. Although mine
operators are required by MSHA regulations to provide specific health and safety training to
miners, there is nothing in either the Mine Act or the regulations which mandates that mine
operators use MSHA-developed training programs.

Mine operators are free to develop their own training in-house or arrange with State agencies or
private contractors for required miner training to be provided. In either case, there must be
commitment from company management for any of this training to be effective. This would also
hold true for any behavior-based training MSHA develops.

OIG’s Conclusion

We agree with MSHA’s concerns that effective training programs need to address safety at all levels,
and that any analysis needs to look at the complete accident cause. It is precisely for those reasons
that, as part of its overall training programs, MSHA needs to incorporate the cognitive or behavioral
methods developed by occupational/safety psychologists which stress to employees why their behavior
is risky and the potential results of unsafe behavior for the purposes of promoting culture change.

While MSHA’s meeting with NIOSH to explore ways to use occupational psychologists in developing
programs designed to reduce risk-taking behavior is a good first step, we believe that MSHA can
augment its work with NIOSH by utilizing the cognitive behavior approaches that teach employees to
understand why their attitudes, values, beliefs and thought processes affect safety on and off the job.

This recommendation is considered unresolved. To resolve this recommendation, please
forward a copy of MSHA’s specific action plan within 60 days of issuance of this final report.


RECOMMENDATION #2



                                                 -11-
MSHA should review whether special and regular assessments for PPE violations can be pursued more
effectively, particularly in situations where a mine operator has demonstrated past PPE compliance
problems.

MSHA’s Response

MSHA utilizes enhanced assessments for penalties for violations of some health and safety
standards. Under our assessments regulations specified in 30 CFR part 100 and the Mine Act,
we can propose an assessment of up to $55,000 for any single violation, depending on the facts
of the violation and the size of the operation. Our policy and §100.5(a)(8) provide that
violations that involve "unique aggravating circumstances" may be considered for special
assessment. A penalty that results from a special assessment is almost always higher than the
penalty generated under the regular assessments formula (thousands of dollars rather than
hundreds of dollars).

The Administrator may designate violations of certain safety or health standards for
consideration for special assessment. We are in the process of developing a memorandum that
directs both Metal and Nonmetal and Coal District Managers to review for special assessments
all violations issued for failure to use personal protective equipment.

OIG’s Conclusion

In a memorandum dated April 20, 2000, MSHA directed both Metal and Nonmetal, and Coal
District Managers to review for special assessments all violations issued for failure to use
personal protective equipment. This recommendation is considered resolved and closed.

RECOMMENDATION #3

MSHA should pursue engineering controls to combat the problem of miners not using PPE and
enhance PPE effectiveness, whenever feasible. These should include regulatory proposals requiring
mining vehicles to have additional passive safety equipment, including, but not necessarily limited to:

        a.      Warning devices, e.g., lights, buzzers and/or sirens, which would serve both to remind
                the occupants, as well as alert an observer, if a vehicle occupant removes a seat
                belt/restraint system while the vehicle’s engine is running.

        b.      Requirements for all mine vehicles to have restraint systems for the lower torso (seat
                belts) for both equipment operators and passengers, whether or not the vehicle has Roll
                Over Protective Structures (ROPS).

        c.      Requirements that all newly manufactured mine vehicles have both lower torso (e.g. lap

                                                       -12-
               belt) and upper torso restraint systems (e.g., harnesses or equivalent).

MSHA’s Response

MSHA began its review of seat belt use and warning lights for surface haulage vehicles as a
result of initial analysis of these types of accidents in 1994. As a result of these studies, a
regulatory plan was published in the Federal Register in 1995.

MSHA published an Advance Notice of Proposed Rulemaking in the Federal Register on July 30,
1998, concerning safety standards for surface haulage equipment. MSHA examined
approximately 8,000 surface accidents (from 1987 to 1996) involving powered haulage
equipment which resulted in either fatalities or lost work days. During that time, 120 miners
were killed and 1,377 were injured due to three causes or contributing factors: unused or
inadequate occupant restraint systems on the equipment; blind areas on self- propelled mobile
equipment; and lack of adequate illumination. MSHA is in the process of developing a proposed
rule that would include requirements for surface haulage equipment in three specific areas:
illumination; restraint systems; and blind areas. MSHA anticipates publication of this proposal
in July.

MSHA currently intends to propose requirements that would require a "seat belt in use" light
outside the equipment cab to indicate whether an equipment operator is wearing the seat belt. It
has been our experience that positive reinforcement devices such as the ”seat belt in use” light
are more likely to be accepted by the employees than negative reinforcement devices such as a
bell or siren. Additionally, for equipment having an obstructed view to the rear, if the mobile
equipment uses a discriminating warning device to detect objects or persons at the rear of the
equipment, we propose to require audible or visual alarms inside the cab to alert the vehicle
operator of persons or objects detected in the sensing area. We are reserving audible alarms for
this unique purpose.

The current draft of the proposed rule would require that most existing equipment (both ROPS
and non-ROPS equipment) be equipped with two-point seat belts. Although we considered
requiring four-point seat belts on all new equipment, we concluded that four-point seat belts
impose limitations on upper body mobility that could create safety hazards for operators of some
types of equipment. For example, some equipment operators pivot to see through side windows
or turn around to see through back windows rather than use mirrors while backing equipment.
If too constrained by four-point seat belts to pivot or turn, equipment operators might miss side
or back views essential to steer equipment or attachments clear of nearby people, equipment,
and other objects.

Obviously, we cannot guarantee which requirements will ultimately be incorporated into the
final rule. The public will have the opportunity to comment on the proposed rule once it is

                                                 -13-
published in the Federal Register, and we will carefully consider all of the comments we receive
in developing the final rule.

OIG’s Conclusion

The OIG supports the measures that MSHA is pursuing. We also believe that MSHA should continue
to evaluate all available engineering control options. For example, an internal buzzer which monitors
seat belt use need not be so loud, nor the same type of sound, that it interferes with other warning
devices.

This recommendation is considered resolved and will be closed pending receipt of a copy of
the final rule.

RECOMMENDATION #4A

Over a five-year period, calendar years 2000 through 2004, MSHA should track and monitor the
number of miners killed while not using PPE, to evaluate the effectiveness of recommendations 1, 2,
and 3, or any other measures deemed appropriate by MSHA to increase PPE use by miners.
However, after this period, if PPE related fatalities have not significantly declined, MSHA should
examine other options, such as individual assessments against any miner for PPE violations, to increase
PPE use.

MSHA's Response

We strongly disagree with the OIG's recommendation to leave open the option of assessing
monetary penalties against miners who violate PPE regulations. With this recommendation, the
OIG disregards the fundamental principal established in the Occupational Safety and Health Act
of 1970 and the Federal Mine Safety and Health Act of 1977. These laws recognize that
employers, not workers, have control over their workplace and, therefore, have primary
responsibility for ensuring that workplaces are safe and healthful. We urge the OIG to delete this
recommendation from the final report.

OIG’s Conclusion

We agree with MSHA that employers have primary responsibility for ensuring that workplaces are safe
and healthful. However, as we previously stated, individual miners do have significant control over PPE
use. Using seat belts as an example, it is obvious that when a miner gets into his/her truck, the miner has
direct control as to whether or not the seat belt is used. Mine operators should aggressively monitor the
seat belt use of their miners, however, mine operator officials: (1) may not always be vigilant in
monitoring whether miners use their seat belts, and
(2) cannot be everywhere at the mine site. This was obvious in both our review of MSHA fatality

                                                   -14-
reports, and in our review of MSHA’s own data on fatalities where seat belts were not used. MSHA’s
data shows that, between 1987 and 1996, in 78 fatal surface haulage accidents, 73 of the miners killed
were not wearing their seat belts. Therefore, while we agree that ideally, operators would continually
monitor and enforce seat belt use by their employees - in reality, in far too many cases, this simply has
not occurred.

In 1977 when MSHA began enforcing the Mine Act, not a single U.S. state had either a primary or
secondary seat belt law. Since that time, beginning around 1984, state governments began pursuing seat
belt laws. These seat belt laws were highly controversial, and fraught with ideological issues
(infringement on civil liberties, big government interference, etc.). Gradually, however, various state
legislatures made pragmatic decisions that seat belts laws would save lives. From that beginning, states
began moving from weaker secondary to tougher primary seat belt laws. This safety evolution spawned
laws mandating the use of motorcycle helmets, bicycle helmets, and child safety seats to protect
individuals from their own unsafe behavior. Studies have established, empirically, that these laws save
lives and prevent serious injuries. It is not expected that these states will turn back the clock on these
laws. In fact, since we began our first draft of this report, three additional states have implemented
primary seat belt laws.

We see no reason why MSHA should not view this evolution in safety as potentially having value and
applicability to the Mine Act. It is an issue that, at a minimum, should be given very serious
consideration. Our recommendation is limited only to MSHA examining, over a five-year period,
whether individual assessments are a needed option to increase PPE use among miners.

This recommendation is considered unresolved.

RECOMMENDATION #4B

For tracking purposes, MSHA must ensure that every fatal accident investigation report address miner
use of PPE in all applicable fatalities (vehicular accidents, falls, drownings, head injuries, etc.). For
monitoring purposes, MSHA should establish a separate section on its Web page that lists all fatalities
where failure to use PPE was a contributing factor. In addition to tracking fatalities, an additional
method of measuring the level of PPE use among miners could be to track serious injuries each year
where failure to use PPE was a factor.

MSHA's Response

MSHA's accident investigators examine the use of PPE and have done so for many years.
MSHA will continue to examine this and all relevant factors in its investigations and include this
information in its written reports and educational materials. On an ongoing basis, MSHA
closely examines its full range of data to better focus its enforcement, educational and
regulatory programs. This includes tracking a myriad of factors that relate to, contribute to, or

                                                  -15-
are somehow related to injuries, illnesses and fatalities in mining.

OIG’s Conclusion

In the majority of the investigative reports we examined, MSHA investigators appropriately addressed
whether PPE was utilized in applicable fatalities (vehicular accidents, falls, drownings, etc.) However,
we found a number of pertinent fatalities where MSHA investigators failed to discuss PPE use.
MSHA should notify its accident investigators of the need to ensure that PPE use is addressed in every
accident investigation report. Given the significant number of fatalities which occur where non-use of
PPE is a factor, we also believe that MSHA should devote a portion of its extensive Web site to track
fatalities where non-use of PPE was a factor. This would elevate PPE as a distinct category within the
myriad of other items already on the MSHA Web site, and could further highlight to the mining
community the importance of PPE use.

This recommendation is considered unresolved. To resolve this recommendation, please
forward an action plan within 60 days of issuance of this final report.


 ADDITIONAL AGENCY COMMENTS

MSHA's Comments on the Report Methodology

The stated purpose of the OIG report is "...to assist MSHA in their analysis of factors which
influence fatal accidents in the metal and nonmetal sector of the mining industry." Noting that
MSHA analyzes many factors in order to determine the causes of accidents, the OIG decided to
instead focus “...on factors contributing to fatal accidents not fully stressed by MSHA, or stressed
fully in relationship to other variables."

MSHA questions the merit of this methodological technique. By design, the analysis
overemphasizes one factor, to the exclusion of other more significant factors.

The methodology section of the report also states "A review of research regarding occupational
and accidental deaths was also conducted to explore the applicability of factors which may
influence fatal accidents in the mining industry.” The report authors include a bibliographical note
which indicates the narrow scope of the research: ''...our bibliography provides an overview of the
issues surrounding cognitive/behavioral safety training, in addition to detailed information on
risk-taking behavior and workplace accidents.”

The report’s authors did not consider the broader body of occupational safety and health research
and analysis which has developed over the past 50 years. A fundamental and well- accepted
principle of occupational safety and health is the 3-tiered hierarchy of accident prevention and


                                                   -16-
control. The hierarchy is engineering controls, administrative controls, and personal protective
equipment (PPE), with engineering controls recognized as the first line of defense to prevent

workplace injuries and illnesses. This hierarchy has been adopted by MSHA, OSHA and other
occupational safety and health agencies in the United States and around the world.

In addition, the report authors appear to neglect or ignore the studies of inadequate corporate
safety and health programs, and the successes and failures of various corporate approaches.

This single-minded approach is overly simplistic and, consequently, flawed. The analysis focuses
on only one part of the complex process of worker safety and accident prevention. By focusing on
personal protective equipment and “risk-taking" behavior, there is an implication that the miner is
mostly to blame for fatal accidents. In reality, most failures that result in mining fatalities are
system failures. They may be failures in the haulage systems, the communications systems, etc. The
failures typically occur because either the system was not designed properly, the worker did not
understand the system, there was a conscious decision not to take the proper action on the part of
management or the employer, or a mechanical failure occurred. The limited focus on personal
protective equipment and behavior ignores all other causative factors.

OIG’s Commentary

The report does not discount the significance of additional factors already studied by MSHA as possibly
relevant to fatalities. However, our goal was to focus on factors contributing to fatal accidents not fully
stressed by MSHA, or stressed fully in relationship to other variables - we did not want to simply revisit
MSHA’s analyses. The relevancy of our methodology became particularly apparent after we reviewed
various internal fatality analyses shared by MSHA officials, and compared them to what we saw in the
fatality reports. After we examined the reports, it was obvious that numerous behavioral factors
contributed to fatalities, including not just unsafe behavior related to PPE, but also miner use of alcohol
and/or drugs, operating vehicles recklessly and/or at excessive speeds, failing to de-energize or properly
ground equipment, and being crushed or run over by unsecured mine equipment. We did not see,
however, any discussion or analysis of behavioral factors or PPE in the narrative fatality analyses provided
to the OIG by MSHA shortly after our entrance conference.

Additional fatality analyses conducted by MSHA for 1998 and 1997, and also shared with the OIG,
excluded PPE issues as distinct, or even related categories. For example, graphs and charts showing
fatalities in categories such as “powered haulage” did not indicate whether a seat belt was used in the
accident – even though a seat belt obviously could have been a highly relevant factor in the fatality. Later
in our review, we discovered additional MSHA analyses which did address the level of seat belt use in
accidents and fatalities. These analyses did have a PPE focus, but still did not address behavioral issues.
Thus, while MSHA determined that miner use of seat belts was often low - the issue of why miners made
decisions not to buckle was not discussed. As a result, we determined that our methodology, which
combined a discussion of all forms of PPE (not only seat belts) within the context of miner behavior, was

                                                   -17-
important. Our analysis should be viewed as providing additional insight and perspective on fatalities to
MSHA, the miners, and the public. It is not intended as a comprehensive study of all the causal factors
which contribute to fatal accidents.

When we determined that a significant number of miners were not using PPE and engaging in unsafe
behavior, it led us to our research on risk-taking behavior. The issue of risk-taking in the workplace is not
a narrow field of inquiry. In fact, most safety experts acknowledge that risky and unsafe behaviors play a
significant role in workplace accidents. There is extensive research on this topic, and we provided
relevant research sources to MSHA in our bibliography.

In regard to PPE, we are normally not dealing with a “system failure,” except possibly in the small number
of cases where PPE was not provided. PPE use decisions are generally made by the individual miners.
As noted in the report, engineering controls such as berms, ROPs, etc. are sometimes inadequate, and
miners must then rely on PPE (see page 4).

Finally, in some cases, the “hierarchy” of accident prevention and control is intertwined. For example,
when a miner is suspended 150 feet over a mine shaft and tied off with a safety line, “engineering controls”
and PPE are one in the same.

A reality in mining which should not be dismissed is that miners do sometimes engage in risky behavior.
The goal of our recommendations is to reduce risk-taking behavior and prevent miners from becoming
victims.

MSHA's Comments on the Report’s Data Analysis

The data analysis conducted for the report demonstrates the fallacy of examining “causes" or
"contributing factors” out of context. In attempting to link a miner's failure to use PPE and a
fatal accident, the OIG disregards critical facts that negate the PPE factor. For example, the
report refers to an accident where a miner was “struck in head by large tire” and mentions a
“hard hat" as the relevant PPE. The facts of the case are: The victim was working beneath a
2,660 lb. tire that was suspended from a crane. The shop-fabricated bead hook from which the tire
was suspended did not secure the tire from falling while it was being lifted and moved. The
victim's head and neck were crushed under the tire. While the victim was not wearing a hard hat
to prevent head injuries (MSHA cited this failure), the protection afforded by a hard hat against
the weight of the tire would not have prevented the employee's death.

In another example, the report refers to an accident where the victim fell from a ladder and his
safety line was too long and it mentions “safety belt/line” as the relevant PPE. The facts of the
case are: A miner had entered a bin wearing a safety belt, lanyard and lifeline. He had tied off on
the walkway and had entered the bin. A second miner was assigned to attend the lifeline. During
the cleanout procedure the victim fell during a time when the man assigned to the lifeline was
distracted and had left his position. The line was too long and allowed the victim to be engulfed in
the material within the bin. All PPE was worn, though improperly adjusted. Procedure was


                                                    -18-
violated when the lifeline attendant left his post. This was not a failure to wear PPE, but a
deficiency in training.

These are just two examples (please see attachment for further analysis) of how simplistic analyses
can distort conclusions and lead to fruitless recommendations. MSHA believes that constructive
analysis must examine all conditions, systems and behaviors that are relevant to the accident. We
cannot forget that we are investigating human behavior-neither workers or managers are robots
and most do not deliberately engage in unsafe acts. If we want to continue making progress
reducing workplace injuries and illnesses, we need a better appreciation and understanding of all
of the factors that lead or cause us to behave as we do-management styles, production pressures,
workplace environment, etc. etc., etc.

OIG’s Commentary

We stipulated clearly in our report that PPE use cannot guarantee that a miner will not be killed or
seriously injured while working in the mines, however, PPE use can greatly decrease the likelihood of
death or serious injury.

We disagree with MSHA’s contention that critical facts which negate the PPE factor were disregarded.
In the first example cited, MSHA maintains that the protection afforded by a hard hat against the weight of
the tire would not have prevented the employees death. In our study of PPE, we identified cases where
workers wearing hard hats survived after being hit in the head with blunt force as severe or greater than in
the hard hat related fatality cited by MSHA. Further, MSHA’s own investigation report stated, “the
employee was not wearing a hard hat to prevent head injuries. Cause of death was attributed to blunt
force trauma to the head. The company has trained employees in the use of and instructed them to wear
hard hats where a hazard to the head exists.”

As for MSHA’s second example, according to the accident investigation report, “the victim fell from the
ladder while trying to knock down the material and became engulfed because his lifeline was too long.”
The MSHA investigation concluded that failure to have a second person stationed near the lifeline to
prevent excessive slack was a contributing factor in this death and cited the operator at 30 CFR
56.16002(c). We view this accident as an obvious PPE/risk-taking related fatality. The victim in this
case, who had received annual refresher training in accordance with Part 48, should not have been
working without a second person available to curb slack.

Finally, it was MSHA not the OIG who conducted these accident investigations. In 51 of these fatalities,
MSHA concluded that failure to utilize PPE was a contributing or causal factor. Another 8 fatalities were
PPE related, involving a more complex combination of miner behavior and PPE use. Three (3) other
fatalities occurred in vehicles where MSHA currently has no regulatory authority to require seat belts.
Miners do work under pressure and in environments which may not necessarily be conducive to PPE use,
this is why our report’s recommendations are important.



                                                   -19-
MSHA's Comments on the Report Findings

The report states that failure to utilize personal protective equipment is a significant factor in
fatalities in metal and nonmetal mines. The report states that failure to use PPE does not
necessarily cause fatal accidents but the report provides no estimate of how many fatalities would
have been prevented through the use of such equipment.

In fact, failure to use PPE rarely causes an accident. As is correctly noted in the OIG report, PPE
can be a major factor in the severity of an accident. However, the most PPE can do is protect the
worker in case of one of the system failures noted above.

This is an extremely important distinction. It is MSHA's position, as well as the other agencies
responsible for occupational safety and health, that the best way to reduce accidents and injuries is
to prevent their occurrence by eliminating the causes. Personal protective equipment is integral
to an effective safety and health program; but it is critical to make clear the Agency's position is
and will continue to be that MSHA will, first and foremost, continue to focus our efforts on
accident prevention. As the record for accident reduction indicates, accident prevention has
allowed the U.S. to become the world's leader in mine safety.

Additionally, the report suggests that safety training may not prevent risk-taking by miners,
pointing to the fact that miners were killed while working at mines where training was "often”
provided. However, in over half of the fatal accidents cited in the OIG report, there was no
indication that the victim received any safety training whatsoever. Further, no qualitative
evaluation was made of the training that the other victims received. Without such information, it
is difficult to conclude that such training is ineffective in deterring risk-taking behavior.

OIG’s Commentary

We agree, as stated by MSHA in their response to our report, that “PPE can be a major factor in the
severity of the accident.” Thus, it is possible that a significant number of miners may have survived these
accidents had they been using PPE. In addition, we see no conflict between focusing on accident
prevention and promoting PPE use. The use of PPE may prevent accidents from becoming serious or
fatal.

In Appendix A we included information on training, when it was available in the investigation report (the
fatality victim’s prior PPE related training was not always discussed by the accident investigators). Based
on this data, at least half (see Appendix A) of the miners killed did receive formal or informal training.
Such training at Part 48 and Part 46 covers a wide variety of topics, well beyond any specific focus on
risk-taking and PPE use, and it should not be confused with the supplemental type of training we
recommend in our report (see recommendation #1). The fact that such a significant number of miners had
received training, yet did not use PPE, establishes to our satisfaction that better training, as well as the
other recommendations in our report, are required.


                                                    -20-
Contributors to this report:

Brent Carpenter, Project Leader
Nigel R. Gardner
Dennis J. Raymond




                                  -21-
              Appendix A

  M/NM Mining Fatalities Pertaining to
Personal Protective Equipment 1995-1998




                 -22-
                                                                                                                                                            Appendix A 1 of 11

                                 Miner Fatalities where MSHA Investigators Concluded that non-use of PPE was a Factor

#1 02/02/95 Seat belt
Description: Miner’s front end loader rolled into 30 foot pit.
Training:    Verbal seatbelt policy in place.
Conclusion of MSHA Investigators: “Contributing to the severity of injuries sustained was the failure to wear the seatbelt provided.”

#2 03/14/95   Seat belt
Description:  Miner rolled truck on mine road.
Training:     Victim had received training in accordance with Part 48.
Conclusion of MSHA Investigators: “Contributing to the severity of the accident was failure of the water truck driver to wear the provided seat belts.”

#3 05/31/95      Safety belt/line
Description:     Miner fell 42 feet from conveyor.
Training:        Part 48 exemption of the operator was noted in the report.*
Conclusion of MSHA Investigators : “The accident was directly caused by the performance of work from an unsafe location. There was danger of falling
but no safety belt and line was used.” “Safety belts and lines were available, but were not being worn.”

#4 06/09/95      Safety belt/line (victim was a foreman)
Description:     Fall
Training:        Operator had an MSHA-approved training plan and training records reviewed indicated that the employees had received the required training
                 under Part 48 and the training was kept current.
Conclusion of MSHA Investigators: “The accident was directly caused by working from the top of an unsecured 10-ft ladder. A contributing factor was the
failure to use a lanyard and safety belt while working in an unsafe elevated position where there was a danger of falling.” “A safety belt and line was not worn
and used and there was an obvious danger of falling.”

#5 08/15/95      Hard Hat
Description:     Miner struck in head by sheet metal.
Training:        Verbal Policy-see below
Conclusion of MSHA Investigators: “a hard hat should always be worn in areas where the hazard of falling objects exists. In this accident, the victim
survived for several days. His injuries may have been lessened if a hard hat had been worn.” “Contrary to instructions from the site superintendent, he was out
of the truck cab without a hard hat.”




                                                                                                                                                            Appendix A 2 of 11

*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                       -23-
#6 09/01/95     Safety belt/line
Description:    Fall
Training?       Part 48 exempt*, although prior PPE training not discussed in investigative report. Mine operator had gone 26 years without a lost time
                accident.
Conclusion of MSHA Investigators: “The victim was standing on the elevated conveyor belt in the area of the head pulley, 30 feet above the dock. He was
using a water hose to wash out the transfer chute. He was not wearing a safety belt and line.” “The use of a safety belt and line could also have prevented the
fall.”

#7 09/07/95      Protective Clothing
Description:     Electrocution
Training:        The mine had an approved MSHA 30 CFR Part 48 Training Plan - company records that the victim had received all the required MSHA
                 training.
Conclusion of MSHA Investigators: “The primary cause of the accident was the failure to de-energize the damaged, 480 volt, power cable before grasping
it and attempting to disconnect it from the intake face fan. A contributing factor was the failure to use suitable protection for persons while handling the
damaged energized power cable.”

#8 09/18/95   Seat Belt
Description:  Miner lost control of dozer, died from blunt trauma.
Training:     Part 48 exempt.* Prior PPE training not discussed in investigative report.
Conclusion of MSHA Investigators: “The equipment operator, involved in a fatal accident, was not wearing a seat belt.” “Seat belts were provided but not
in use.”

#9 09/21/95      Safety belt/line
Description:     Fall
Training:        The victim had received annual refresher training, in accordance with Part 48.
Conclusion of MSHA Investigators: “The primary cause of the accident was the performance of work from an unsafe, elevated position without a safety
belt and line.” “The victim was not wearing a safety belt and line to prevent him from falling.”

#10 12/12/95 Life Jacket
Description:     Drowning
Training:        Part 48 exemption.* .
Conclusion of MSHA Investigators: “The direct cause of the accident was failure to wear a life jacket while performing work where there was danger of
falling into water. A contributing factor may have been the victim had a 0.20% ethyl alcohol blood level at the time of the accident.” “Life jackets were
available but not in use on the day of the accident.

#11 1/25/96   Seat Belt
Description:  Miner backed through berm over dump and was ejected through rear cab window.
Training:     The operator had an approved training plan required under Part 48.
Conclusion of MSHA Investigators: “Contributing to the severity of injuries sustained was failure to wear the seatbelt.”


*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                       -24-
                                                                                                                                        Appendix A 3 of 11
#12-13 4/17/96 Life Jacket (double fatality)
Description:    Drowning
Training:       Victims had received training in accordance with Part 48
Conclusion of MSHA Investigators: “Failure to wear life preservers contributed to the severity of the accident.” Life jackets had been issued to the victims.
It was determined that one of the victims could not swim.

#14 05/10/96 Safety belt/line
Description:       Fall
Training:          The victim had received training in accordance with Part 48.
Conclusion of MSHA Investigators: “The direct cause of this accident was failure to use a safety belt and lanyard when moving the wooden plank used to
install bolts to the elevated hopper.”“A safety harness was provided at the site, but was not being worn when the accident occured.”

#15 5/18/96   Seat Belt
Description:  Miner drove off mine road.
Training:     Covered under Part 48, though not reporting mine activity to MSHA
Conclusion of MSHA Investigators: “Contributing to the severity of the accident was the failure to replace the dump truck doors and to provide seat belts.”

#16 5/28/96   Hard Hat (victim was corporate official)
Description: Blow to head from falling materials
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Contributing to the possible severity of the injury was the failure to use hard hats where there was a danger of falling
material.”

#17 08/07/96 Safety belt/line
Description:  Fall
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The cause of accident was failure to use the available fall protection equipment at the load-out facility.”

#18 09/10/96 Life Jacket
Description:     Drowning (prior fall from dredge pipeline)
Training:        The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Failure to wear personal flotation devices, where there was danger of falling into the water, contributed to the severity
of the accident.” Life jackets were provided, but usually not worn by employees when accessing dredge.




*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                       -25-
                                                                                                                                                            Appendix A 4 of 11
#19 09/12/96 Safety belt/line
Description:     Fall
Training:        The victim had received training in accordance with 30 CFR Part 48.
Conclusion of MSHA Investigators: “The primary cause of the accident was the victim working from an unsafe position in the raise without using a safety
belt and lanyard.”

#20 09/16/96      Safety belt/line
Description:      It was determined that the victim was rendered unconscious after a 25 foot fall, and died as a result of being covered by hot materials.
Training?         Victims prior PPE training is unclear, the report notes that operator had trained and furnished safety belt/lines to some of its employees on
                  proper safety belt/line use.
Conclusion of MSHA Investigators: “Contributing to the severity of one of the victims was the failure to use safety belts and lines while working in an area
where there was danger of falling.”

#21 11/18/96 Seat Belt
Description:     Miner drove vehicle off road and rolled - suffering fatal head injuries.
Training:        Victim had been trained as required by Part 48.
Conclusion of MSHA Investigators: “a passenger was fatally injured and the driver slightly injured when a 2-1/2 ton International truck over-traveled the
outer edge of a mine access road. Neither occupant was wearing provided seat belts at the time of the accident.” “Failure to wear seat belts may have
contributed to the severity of the accident.”

#22 12/12/96     Seat Belt
Description:     Fork lift overturned causing the employee to be partially thrown from the operator's compartment and pinned under the unit's canopy. The
                 victim died from crushing injuries
Training:        A warning label on the underside of the forklift's FOPS instructed the driver to "fasten belt."
Conclusion of MSHA Investigators: “Contributing to the severity of the accident were the lack of a company policy requiring forklift operators to wear
seatbelts, and the victim's failure to wear the provided seatbelt.”

#23 02/24/97 Seat Belt
Description:  Intoxicated Miner drove truck into pond and was pinned in vehicle and drowned.
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Contributing to the severity of injuries was the fact that the victim was not wearing the seatbelt provided in the
vehicle.”

#24 02/26/97 Safety belt/line
Description:     Fall
Training:        The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “a surface miner was fatally injured in a rock fall. He was drilling near the perimeter of a highwall, where there was a
chance of falling and was not tied off with a safety belt and line. “The lack of a safety belt and line contributed to the severity of the accident.”


*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                       -26-
                                                                                                                                       Appendix A 5 of 11
#25 03/15/97    Hard  Hat
Description:    Miner struck in head by large tire.
Training:       See below
Conclusion of MSHA Investigators: “The employee was not wearing a hard hat to prevent head injuries. Cause of death was attributed to blunt force
trauma to the head. The company has trained employees in the use of and instructed them to wear hard hats where a hazard to the head exists.”

#26 04/27/97 Safety belt/line
Description:     Fall
Training:        The company had no records to show that the victim had received training in accordance with Part 48.
Conclusion of MSHA Investigators: “The victim failed to use a safety belt and line restraint system at the truck wash area behind the lime plant.” The
investigators concluded that management failed to enforce use available of safety belt and line restraint systems.

#27 05/05/97     Life Jacket
Description:     Drowning
Training:        Investigative report states that the victim had not received training in accordance with Part 48. Victims knowledge of proper life jacket use is
                 not discussed. The victim had 28 years of mining experience, was partially paralyzed, and could not swim.
Conclusion of MSHA Investigators: “The accident occurred because the victim, who was unable to swim, entered the water to maneuver a work boat
without benefit of a life jacket or other floatation device.” Life jackets were stored in the mechanic shop in their original wrappers.

#28 06/20/97 Hard Hat
Description:  Miner struck in head by fender of front end loader during maintenance.
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Failure to wear a hard hat was a contributing factor to the severity of the injury.”

#29 06/25/97 Safety belt/line
Description:   Fall
Training:      The company informed MSHA that the victim had received training on fall protection, no records where available however.
Conclusion of MSHA Investigators: “The employee opened an outer elevator shaft door without the passenger compartment being in position on the floor
he was on. The employee was not wearing a safety belt and line to prevent his falling into the shaft.”

#30 07/16/97 Safety belt/line
Description:     Fall (victim was a mine agent)
Training:        Victim had received training in accordance with Part 48.
Conclusion of MSHA Investigators: “The failure to wear a safety belt and line while working where there was a danger of falling contributed to the
severity of the accident.” “The company president had sent a letter to all employees approximately a month before the accident, stating that they were
expected to use a safety belt and line when working near the edge of a highwall. However, this blast crew, which included the two agents of the contractor
who were involved in the accident, chose to ignore these instructions.”



*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                      -27-
                                                                                                                                                          Appendix A 6 of 11
#31 07/24/97 Hard Hat (victim was an owner-consultant)
Description:  Locomotive truck assembly struck victim in head.
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Failure to use protective head wear contributed to the severity of the accident.”

#32 07/25/97      Seat Belt
Description:      Victim thrown into the windshield and then through the right door's window.
Training:         The company had a policy which required the use of seat belts while operating mobile equipment. The victim had received 8-hours of task
                  training.
Conclusion of MSHA Investigators: “The truck was equipped with seat belts that met SAE criteria. The truck driver, however, was not wearing the seat
belt at the time of the accident, and it was found tucked behind the seat.” “The primary cause of the accident was the inadequate construction of the berm.
Contributing factors were the truck contacting the berm and the failure of the driver to wear the seat belt provided.”

#33 08/19/97 Safety belt/line
Description:    Fall
Training:       Victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Failure to use safety belts and lines contributed to the severity of the accident.” Safety harnesses, belts, and
lanyards were available onsite.

#34 08/28/97     Cap Lamp
Description:     Miner run over by mine vehicle.
Training:        Victim had initially received newly employed inexperienced Miner Training and was in the process of completing his task training at the time
                 of the accident.
Conclusion of MSHA Investigators: “The accident was caused by the unsafe location of the victim, and the failure to utilize a cap lamp which would have
illuminated the victim's position. The victim's blood alcohol content of .229 also contributed to his inability to remain attentive to the traffic in the area.”

#35 09/03/97 Safety belt/line
Description:     Fall
Training:        Victim was trained in accordance with Part 48 and had received annual refresher training.
Conclusion of MSHA Investigators: “Contributing to the severity of the accident was the failure to wear a safety belt and line while conducting drilling
operations near the edge of the highwall.” The victim’s safety belt was found lying against the brake pedal in the cab of the truck located 60 feet from the drill
hole.

#36 09/28/97 Life Jacket (victim was mine foreman)
Description:      Drowning
Training:         Victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “Contributing to the severity of the accident was work being performed in an area where there was a danger of
falling into the water without a life jacket being worn.”



*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                      -28-
                                                                                                                                      Appendix A 7 of 11
#37 09/30/97  Seat Belt
Description:  Miner’s vehicle rolled over, throwing him from the seat and pinning him under the rollover protective structure.
Training:     Victim had not received training in accordance with Part 48, however, he previously overturned while driving over the outer edge of a
              stockpile. During the previous roll-over (the scraper was equipped with seat belts and ROPS) the victim was wearing a seat belt and was not
              injured
Conclusion of MSHA Investigators: “Failure to wear seat belts contributed to the severity of the accident.”

#38 10/20/97 Safety belt/line (victim was corporate official)
Description:     Fall
Training:        The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The accident was caused by the failure to de-energize and lock out the crusher prior to accessing the platform
adjacent to the crusher opening. Failure to provide and assure the use of safety belts and lines were contributing factors.”

#39 10/27/97 Life Jacket
Description:    Fall from work boat into water.
Training:       The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The failure to wear a life jacket contributed to the severity of the accident.” The victim was found 50 feet under
water. Life Jacket found floating inside the work boat.

#40 01/19/98  Seat belt
Description:  The victim was thrown through truck windshield.
Training:     This Spanish speaking victim had not received training in accordance with Part 48. However, the victim had attended meetings conducted by
              MSHA in which the requirement to wear seat belts was stressed. In addition, the operator’s verbal policy seat belt policy was communicated
              in Spanish. The operator also appeared to have properly enforced its seat belt policy. Drivers were warned that they would be disciplined if
              found out of compliance. The victim had also been found to have worn his seat belt in the past. Jobe Concrete Products Inc., 21 FMSHRC
              1143 (October 1999).
Conclusion of MSHA Investigators: “Failure to wear a seat belt contributed to the severity of the accident.”

#41 01/19/98      Safety belt/line
Description:      Fall
Training:         The victim had not received training in accordance with Part 48, although a safety harness and line were available - and the report noted that
                  a sign next to the stairway leading to this floor had been posted by the operator for their plant employees and instructed them to use a harness
                  and line when entering bins.”
Conclusion of MSHA Investigators: “The victim was not wearing a safety belt and line when he fell.” “Management's lack of procedures to ensure usage
of a safety belt and line contributed to the severity of the accident.”




*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                      -29-
                                                                                                                                      Appendix A 8 of 11
#42 01/21/98     Hard  Hat/Safety   belt and line
Description:     Fall and blow to head.
Training:        The victim had received training in accordance with Part 48.
Conclusion of MSHA Investigators: “A safety belt and line was not available at the site for the victim to use.” “ The victim (and other employees) was
not wearing a hard hat. Injuries received from the hammer handle blow and the fall may have been less severe had head protection been worn.” The victim
died eight days later as the result of a skull fracture.

#43 01/27/98 Safety belt/line
Description:     Fall
Training:        The victim had received training in accordance with Part 48. Annual refresher training had been conducted.
Conclusion of MSHA Investigators: “The accident was caused by lack of an effective program to ensure the use of personal fall protection when working
around the open shaft and to ensure that the open shafts were covered. When questioned, employees indicated that swinging the suspended skips/cages over
the open shaft to rotate them, without using personal fall protection or covering the shafts, had been a practice.” The victim was wearing a safety belt but did
not tie off.

#44 03/14/98 Safety belt/line
Description:    Fall
Training:       The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The primary cause of the accident was failure to lock out the feeder gate prior to working on top of the surge pile.
Failure to wear a safety belt and line greatly contributed to the severity of the accident.”

#45 04/28/98 Safety belt/line
Description:     Fall from Conveyor
Training:        The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The accident was caused by failure to stop the conveyor before attempting to clean an elevated pulley. Contributing
to the severity of the injuries may have been the fall.” The fatalgram for this accident notes that “where there is a danger of falling, persons should wear
safety belts and lines.”

#46 05/06/98 Safety belt/line (victim was foreman/co-owner)
Description:     Fall
Training:        The victim had received training in accordance with Part 48. Annual refresher training had been conducted.
Conclusion of MSHA Investigators: “The foreman at this operation was fatally injured on May 6, 1998, when he fell from the south high wall area to the
quarry floor, a distance of about 60 feet.” “ He was not wearing a safety belt and line that was located nearby in his company vehicle.”




*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                      -30-
                                                                                                                                                          Appendix A 9 of 11

#47 05/14/98 Seat belt
Description:     Victim backed his truck off a stockpile.
Training:        The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The truck was equipped with side view mirrors and functional seat belts. The victim was not wearing the seat belt.”
“Failure to use a seat belt may have contributed to the severity of the accident.”

#48 09/02/98 Seat belt
Description:    Victim’s bulldozer overturned in the pit.
Training:       The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: “The direct cause of the accident was attempting to travel the pit bench which was too narrow to support the size and
weight of the bulldozer. Failure to wear seat belts contributed to the severity of the accident.” The seat belt in this case was usable but not fully adjustable.

#49 09/22/98    Safety belt/line
Description:    Fall
Training:       The mine operator had a verbal policy prohibiting persons from walking onto surge piles and had administered disciplinary action for not
                adhering to it. This policy had been discussed several times in safety meetings during the previous year.
Conclusion of MSHA Investigators: “The accident was caused by failure to shut off and lock-out the discharge equipment and by walking on the surge
pile without wearing a safety belt and lifeline.”

#50 11/09/98 Seat belt
Description:  Victim drove truck over edge of stockpile.
Training:     The victim had not received training in accordance with Part 48.*
Conclusion of MSHA Investigators: ““Failure to wear seat belts contributed to the severity of the accident.” The truck was equipped with seat belts.

#51 11/13/98  Safety belt/line (victim was a foreman)
Description:  Fall (from bin)
Training:     The victim had not received training in accordance with Part 48. The report noted that routinely, full-body harnesses with short lanyards were
              worn while in the liftbasket and while working above ground on the bin
Conclusion of MSHA Investigators: “The accident was caused by failure to use the safety harness and lifeline while working on the bin.”




*A notation in the fatality report that a victim had not received training in accordance with Part 48, does not necessarily mean that the victim was unaware of PPE and its
proper use. In many of these cases, the victim’s prior awareness regarding the role and use of PPE was not discussed by the accident investigators.
                                                                                      -31-
                                                                                                                                            Appendix A 10 of 11

Miner Fatalities where non/improper PPE use and Unsafe Behaviors/Training were Associated

#1 01/11/96    Seat belt/training Seat
Description:   Victim was fatally injured while riding unsecured on the outside of the cab during training.
Comments:      The accident report concluded that the cause of the accident was lack of provision for secure travel while training was being conducted. The
               miner killed was in a very precarious position riding outside the cab while being trained. This is a case of poor training and overt risk taking by
               all parties. In cases like this, the operator can provide secure travel via a “training seat” with a seat belt.

#2 02/06/96    Seat belt related
Description:   The victim was fatally injured when he was crushed between the lift arm and the roll-over protective structure of a small utility loader.
Comments:      Miners should not generally remove their seatbelts while their vehicles are operating. In this case, the victim had gotten out of the seat, while
               the loader was running. The investigative report noted that the vehicle’s instruction manual stated that users should; 1) keep seat belts
               fastened; 2) never leave the operator's seat without first lowering the lift arm, or engaging the lift arm stops, and shutting off the engine, 3)
               never attempt to work the controls unless properly seated.

#3 07/19/97    Seat belt/safety bar
Description:   Miner left seat and was pinned via vehicle lift arm
Comments:      Miners should not generally remove their seatbelts while their vehicles are operating. The accident report states that, “the miner left the
               operator's seat to adjust a shop fabricated component on the equipment, placing himself in an unsafe position.” Also, in this fatality, the seat
               belt was never worn with the accident report noting that “the seatbelt was tucked behind the seat with extraneous material on it.” The report
               also concludes that the safety seat bar (which is a form of PPE) was intentionally bypassed. Manufacturers' safety and warning decals were
               in place and readable in the operator's compartment, and that the operator's handbook was in the cab.

#4 07/23/98    Seat belt related
Description:   Vehicular Accident
Comments:      In this case, an intoxicated miner’s trailer jack-knifed. The MSHA fatalgram for this death indicates that the miner may not have been
               wearing his seat belt.

#5 08/21/98    Safety belt/line related
Description:   Victim fell from the rope ladder he had been working from and became engulfed in materials.
Comments:      According to the accident investigation report, the victim “fell from the ladder while trying to knock down the material and became engulfed
               because his lifeline was too long. Failure to have a second person stationed near the lifeline to prevent excessive slack was a contributing
               factor.” The victim had received annual refresher training in accordance with Part 48. The operator was cited at 30 CFR 56.16002(c) for
               there not being a second person available to curb slack.

#6 08/28/98    Electrical PPE (gloves)
Description:   Mine superintendent’s hand came in contact with energized/damaged cable
Comments:      Protective gloves may have prevented this fatality. As indicated by the MSHA fatalgram for this accident, “Insulated gloves should be used
               when handling energized cables.” Requirement for their use is defined at 57.12014.


                                                                              -32-
                                                                                                                                         Appendix A 11 of 11
#7 12/07/98    Life Jacket
Description:   Miner drowned after overloaded pump station capsized.
Comments:      As noted in the MSHA fatalgram, the victim in this accident was not using his life jacket. MSHA ‘s regulation on life jackets is unambiguous -
               with 56.15020 stating that, “life jackets should be worn where there was danger of falling into water.” This includes pump stations. In the
               victim’s (Yates) case, a life jacket may have prevented his drowning. Although a miner involved in the accident (Forsell) was forced under
               water by the pumpstation (and survived) we do not know what happened to the victim after the pump station capsized (his body had to be
               located by divers). It appears that MSHA could have cited 56.15020 here.

#8 11/03/98    Life Jacket
Description:   Miner fell from dock and drowned.
Comments:      The victim was found submerged in water near the plant's boat dock. The river where the miner drowned was adjacent to his assigned work
               area, and the miner’s forklift was found 72 inches from the dockrail. MSHA ‘s regulation on life jackets at 56.15020 states that, “life jackets
               should be worn where there was danger of falling into water.”


Miner Fatalities where MSHA has no Regulatory Requirement for PPE Use

#1 08/03/95    Seat belt
Description:   Miner overturned front-end loader into an excavation and was killed.
Comments:      A seat belt was unavailable to the miner. MSHA regulation (56.14130) requires that wheeled loaders, such as the one involved in this accident,
               have ROPS and seat belts if manufactured on or after July 1, 1969. The vehicle in question was manufactured in 1968.

#2 04/03/96    Seat belt
Description:   Miner thrown from loader while in operation and run over by same vehicle.
Comments:      A seat belt was unavailable to the miner. There is no standard requiring that loaders used in underground operations have seat belts.

#3 09/28/98    Seat belt
Description:   Miner killed in collision with another vehicle. The victim entered the intersection with his lights off (it was after sunset) and was run over by an
               approaching haul truck.
Comments:      The MSHA investigators concluded that “failure to wear the seat belts in the service truck may have contributed to the severity of the
               accident.” However, there is no requirement for the use of seat belts in the service truck the victim was operating.




                                                                              -33-
                   Appendix B

Studies on Seat Belt/Restraint System Use by Miners




                       -34-
                                                                                         Appendix B 1of 2



                Studies on Seat Belt/Restraint System Use by Miners

1.      MSHA’s review of Coal and Metal/Nonmetal Surface haulage Accidents, 1987-
        19961

This study supported MSHA’s July 30, 1998 Notice of Proposed Rulemaking at 30 CFR Parts 56, 57,
and 77, Safety Standards for Surface Haulage Equipment (63 FR 40800). It determined that:

<       Seat belts were not used in 73 of 78 overall (coal and M/NM) fatal surface haulage accidents
        between 1987-1996.2

<       Seat belts were not worn in 49 of 51 M/NM surface haulage fatalities between 1987-1996.

In the July 30, 1998 notice, MSHA stated that 30 % of the fatal mining accidents at surface mines and
surface areas of underground mines over the prior three years involved surface haulage equipment.
Further, this equipment was cited as the primary cause in 40 percent of the fatalities in 1997 in M/NM
mining.

2.   MSHA’s Analysis of Surface Powered Haulage Accidents, January 1990-July 19963

In this study, the primary focus was on 1,300 truck haulage accidents, of which 640 resulted in traumatic
injuries such as severe cuts, burns, broken limbs and internal injuries. 139 accidents of these accidents
resulted in fatalities. Study conclusions:

<       In more than 200 accidents - equipment operators failed to use seat belts.

<       Failure to use seat belts always resulted in more serious injuries in accidents involving trucks and
        berms.

<       There is a misconception among equipment operators that it is usually better to jump from an out-
        of-control vehicle than to ride it out. In nearly every instance the condition of the equipment
        operator’s compartment indicated the drivers would have been protected if they had worn their
        seat belts.



1 Data provided by MSHA to the OIG. Data created May 1997-January 1997, D.A. Cash, Mining
Engineer, Technical Support, MSHA

2 Ten (10) of the fatals occurred on pickup and service vehicles equipment that would not be required
under the M/NM regulations to have seat belts.

3 Presented at the twenty-seventh annual meeting of the Institute on Mining Health, Safety, and
Research, Analysis of Surface Powered Haulage Accidents, January 1990-July 1996, George M.
Fesak, Rodric M. Breland, Jack Spadero, MSHA.
                                                    -36-
                                                                                     Appendix B 2 of 2


3. Bureau of Mines - Review of Accidents During Surface Mine Mobile Equipment
                  Operation 1989-19914

The study examined 2,852 mining accidents overall and 163 mining accidents where seat belt use
could be determined. It concluded that haulage fatalities are preventable if miners wear seat belts, but
that seat belts were worn in only 45% of powered haulage accidents. Specifically:

<       When belts were worn, no fatalities occurred and accidents caused an average of 31 lost
        workdays. In contrast, when belts were not worn, 8 fatalities occurred and accidents caused
        an average of 41 lost workdays. An additional 4 miners were killed when they jumped from
        moving vehicles.

<       Loss of control accidents caused 29 of 47 fatalities during the study period. In accidents
        involving vehicle rollovers, no fatalities occurred when miners wore their seat belts, and an
        average of only 18 workdays were lost. In contrast, four fatalities occurred in rollover
        accidents where the miner was not wearing a seatbelt and lost work time rose to 44 days.

<       Overall accidents involving mobile equipment made up only 12% of all surface mining
        accidents but caused 39% of mining fatalities. Haulage trucks accounted for the largest
        number, and most severe, accidents.

The study called for better restraints for vehicle operators and suggested that operators wear them
every time they get in their vehicles. The study said these improvements, along with better shocks to
eliminate jarring, could potentially eliminate or lessen the severity of 60% of operator accidents.

4. M/NM Truck Accidents Related to Seat Belts, 1982-19845

This study examined M/NM truck accidents between 1982-1984, and found that failure to use seat belts
was a factor in 42% of M/N haulage truck accidents.




4 Presented at the Twenty-fifth annual meeting of the Institute on Mining Health, Safety, and Research,
A Review of Accidents During Surface Mine Mobile Equipment Operation, J. Aldinger, C. Keran, August
1994.

5 See Mason, M/NM Truck Accidents Related to Seat Belts, 1982-1984. MSHA PC 7016, March
1987.
                                                   -37-
             Appendix C

Selected Bibliography/Research Sources




                 -38-
                                                                                   Appendix C 1 of 2


                             Selected Bibliography/Research Sources


Books and Publications

Geller, ES (1998). Working Safe: How to help people actively care for health and safety
job. Center for Applied Behavior Systems, Department of Psychology, Virginia Polytechnic Institute and
State University. CRC Press

Geller, ES (1996). The psychology of safety: How to improve behaviors and attitudes on the
job. Radnor, PA: Chilton Book Company.

Geller, E., Carter N., DePasquale J., Peftinger C., & Williarns J. (2000) Applications of Behavioral
Science to Improve Mine Safety. Virginia Polytechnic Institute and State University
Blacksburg, Virginia. Supported in part by Grant # I RO1 CCR315316-01 from the National Institute
for Occupational Safety and Health, Centers for Disease Control and Prevention, Atlanta, GA.

General Accounting Office, Motor Vehicle Safety: Comprehensive State Programs Offer Best
Opportunity for Increasing Use of Safety Belts (GAO/RCED-96-24, January, 1996)

Heinrich, HW., Peterson, D.,& Roos, N. (1980). Industrial Accident Prevention: A safety
management approach (Fifth Addition). New York: McGraw-Hill, Inc.

Rogers RW. A protection motivation theory of fear appeals and attitude change. Journal of
Psychology 1975; 91:93-114.

Slovic, P. (1991) Beyond numbers: A broader perspective on risk perception and risk communication.
In D.G. Mayo & R.D. Hollander (Eds.) Deceptable evidence: Science and values
in risk management. New York: Oxford University Press

Topf, MD.(1998) Making Your Company Safer/Safor: Strategies for assessing your employees’
attitudes toward safety, managing and reinforcing safe behaviors, giving feedback and more.
The Topf Organization, King of Prussia, Pennsylvania, Library of Congress Catalog Number: 98-90143.

Weinstein, ND (1980), "Unrealistic Optimism about Future Life Events," Journal of Personality and
Social Psychology, 39 (October), 806-820.

Wilde, G.J. S. (1994). Target Risk. Toronto, Ontario, Canada: PDE Publications




                                                 -39-
                                                                                       Appendix C 2 of 2

Articles (with Westlaw Citation)

Beaudin. B, Jacoby L., Quick, D. (4/1/97) WL 29239818 Professional Safety Vol. 42, No. 4
Promoting safe behavior: Theoretical foundations.

Blair, E. (8/1/99) WL 26939383 Professional Safety Volume 44, Issue 8; Behavior-based safety:
Myths, magic & reality

LaBar, G.(5/1/98) WL 15157423 Occupational Hazards Vol. 60, No. 5 Is Behavioral Safety the
Missing Piece?

McKenna, F., Myers, L. (2/1/97) WL 10608232 British Journal of Psychology Vol.88. No.1
Illusory self-assessments - can they be reduced?

Minter, S. (10/1/90 ) WL 2634293 Occupational Hazards, The Psychology of Safety: Risk
Perception and Safe behavior.

Minter, S. (10/1/90 ) WL 2634344 Occupational Hazards, A New Perspective on Head Protection.

Topf, Michael D (8/1/98 WL 33329052 Professional Safety Vol. 43, No. 8 Behavioral safety: A
multifaceted approach.

Topf, Michael D (8/1/97) WL 10435316 Occupational Hazards Vol. 59, No. 8, 20 Lessons for
safety trainers (safety training for employees).

Topf, Michael D (6/1/99) WL 25086954 Occupational Health & Safety Vol. 68, Issue 6;
Chicken/egg/chegg.

Topf, Michael D (9/1/99) WL 12401553 Occupational Hazards Vol. 61, Issue 9; "Eenie,
meenie,minie...NO!"

Weinstein, ND (12/8/89) WL 3078179 Science , Optimistic biases about personal risks.

Bibliography Note: While by no means comprehensive, our bibliography provides an overview of the
issues surrounding cognitive/behavioral safety training, in addition to detailed information on risk taking
behavior and workplace accidents. A review of these materials will show that there are different forms of
cognitive/behavior oriented safety programs currently in use in the workforce. These run the spectrum
from full fledged “behavior based safety”(BBS) programs which require ongoing monitoring and self-
assessment by management and employees to identify and correct unsafe behaviors; through more basic
programs which integrate basic cognitive/behavioral training methods as a component of an overall safety
strategy.

                                                   -40-
         Appendix D

  MSHA’s Written Responses
(Dated January 27 and April 21, 2000)




             -41-
